No. ____________
IN THE SUPREME COURT OF THE UNITED STATES
Brandi Channon and Matthew Channon,
Petitioner,
v.
United States of America,
Respondent
CERTIFICATE OF SERVICE
I, Grant R. Smith, an attorney appointed to represent the Petitioner, Matthew
Channon under the Criminal Justice Act, hereby certify that, on July 6, 2021, I served
the Petition for Writ of Certiorari and accompanying Motion for Leave to Proceed In
Forma Pauperis on all parties required to be served under Supreme Court Rule
29.4(a).
I completed service by causing a copy of the documents to be enclosed in an
envelope and be delivered to Federal Express for delivery within 3 calendar days, and
by causing an electronic version of the documents to be transmitted via email to:
Elizabeth Prelogar
Acting Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2000
SupremeCtBriefs@usdoj.gov
/s Grant R. Smith
Grant R. Smith
Assistant Federal Public Defender
Counsel of Record for Petitioner

